U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Robert Timothy Harley v. Merrick B. Garland, Attorney General, et al.
S.Ct. No. 21-104
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 22,
2021, and placed on the docket on July 26, 2021. The government’s response is due on August
25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 24, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-0104
HARLEY, ROBERT TIMOTHY
MERRICK B. GARLAND, ATTORNEY GENERAL, ET
AL.

MARVIN DAVID MILLER
LAW OFFICE OF MARVIN D. MILLER
1203 DUKE STREET
ALEXANDRIA, VA 22314
703-548-5000
LEGALGIRLL@AOL.COM

